  Report No. D-2008-024          January 18, 2008




The Inspection Process of the Army Reset Program for
        Equipment for Units Returning From
              Operation Iraqi Freedom
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ADCS                  Army Deputy Chief of Staff
AMC                   Army Materiel Command
ARFORGEN              Army Forces Generation
ARI                   Automatic Reset Induction
BCT                   Brigade Combat Team
DARPL                 Dynamic Army Resource Priority List
FORSCOM               U.S. Army Forces Command
FRAGO                 Fragmentary Order
HBCT                  Heavy Brigade Combat Team
SBCT                  Stryker Brigade Combat Team
TI                    Technical Inspection
                             DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DR.IVE

                         ARLINGTON, VIRGINIA 22202-4704


                                                                         JAN 1 8 2008




MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               ARMY DEPUTY CHIEF OF STAFF FOR LOGISTICS (G-4)

SUBJECT:	 Report on the Inspection Process of the Army Reset Program for Equipment
          for Units Returning From Operation Iraqi Freedom (Report No. D-2008-024)


      Weare providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.

        Directive 7650.3 requires that all recommendations be resolved promptly. As a
result of management comments, we redirected Recommendation 2. and renumbered
Recommendations l.a., l.b., and 2. as 1.,     and  We request that the Army Deputy
Chief of Staff for Logistics (G-4) provide comments on Recommendation 3. by
February 19,2008.

       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudLH@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
                 of the actual                            to    classified comments
                     must    sent over
               Department of Defense Office of Inspector General
Report No. D-2008-024 	                                                  January 18, 2008
   (Project No. D2006-D000LH-0246.000)

           The Inspection Process of the Army Reset Program for 

                   Equipment for Units Returning From 

                         Operation Iraqi Freedom 


                                 Executive Summary 


Who Should Read This Report and Why? The subject of this report directly applies to
the work of DoD civilian and military personnel responsible for the reset of equipment
provided to the warfighter deployed in support of Operation Iraqi Freedom. This report
not only identifies potential guidance shortfalls but also details actions the Army took in
order to clarify policies and procedures executed during the reset process.

Results. The Army’s technical inspection process for the reset of unit equipment
returning from Operation Iraqi Freedom was generally effective. However,
inconsistencies occurred among redeploying units in the conduct of technical inspections,
the granting of exemptions from automatic reset induction, and the reporting of reset
equipment. This happened because guidance was:

   •	 contradictory on when and where units should perform technical inspections,

   •	 nonexistent on exempting equipment from automatic reset induction, and

   •	 insufficient on uniform reporting requirements for equipment undergoing the reset
      process.

As a result, approximately 35 units returning from Operation Iraqi Freedom in the
coming years will not use a standard method for initiating repair or replacement. Items
needing reset may be delayed in entering the national-level reset pool. Exempting
equipment reduces availability and creates difficulties in the redistribution of equipment
to higher priority units. Additionally, reset status reporting may not provide decision
makers with complete and consistent information. (See Finding section for detailed
recommendations.)

Management Comments. The Director of Maintenance, responding for the Army
Deputy Chief of Staff for Logistics (G-4), concurred. The Director of Maintenance
agreed to establish clear and consistent policy for when and where units will perform
technical inspections and to establish uniform criteria for reporting reset progress in the
FY 2008 Reset Fragmentary Order. The Director of the Internal Review and Audit
Compliance Office, responding for the Commander of the U.S. Army Materiel
Command, nonconcurred. The Director of Internal Review and Audit Compliance stated
the recommendation should be redirected to the Army Deputy Chief of Staff for Logistics
(G-4), who is responsible for the policy on the Automatic Reset Induction list. The Army
Deputy Chief of Staff for Logistics (G-4) concurred with the intent of the
recommendation and agreed to establish policy directing units to seek approval from U.S.


                                             i
Army Materiel Command for exemptions of equipment from the Automatic Reset
Induction list. As a result of the comments, we redirected the recommendation that dealt
with exempting equipment from the Automatic Reset Induction list. A discussion of
management comments is in the Finding section of the report, and the complete text of
the comments is in the Management Comments section. The comments were responsive.
However, we request that the Army Deputy Chief of Staff for Logistics (G-4) comment
on redirected Recommendation 3. by February 19, 2008.




                                           ii
Table of Contents 


Executive Summary                                         i


Background                                                1


Objectives                                                3


Review of Internal Controls                               3


Finding
     Technical Inspection Process                         5



Appendixes
     A.   Scope and Methodology                          13 

     B.   Prior Audit Coverage                           16 

     C.   Reset Process                                  17 

     D.   Automatic Reset Induction Exemptions by Unit   18 

     E.   Report Distribution                            19 


Management Comments
     Army Deputy Chief of Staff for Logistics (G-4)      21 

     U.S. Army Materiel Command                          22 

Background
    Reset. Reset is a generic term that refers to a series of actions to restore units to a
    desired level of readiness given mission requirements and availability of
    resources. Reset actions include:

            •	 Replacement – Buy new equipment to replace battle losses, washouts,
               obsolete equipment, and critical equipment deployed and left in
               theater.

            •	 Recapitalization – Rebuild or repair equipment to a level that
               increases the performance specifications of the equipment or returns
               the equipment to a “zero mile/zero hour” level with original
               performance specifications.

            •	 Repair – Rebuild or repair equipment to meet Army maintenance
               standards.

    The U.S. Army Materiel Command (AMC) Reset Team conducts a site survey
    approximately 90 days before the reset start date. The site survey looks at
    maintenance capabilities, contractor capabilities, maintenance locations, and
    support provided by AMC. The unit’s goal is to return all equipment to full
    operational capability within 180 days of the unit’s designated reset start date for
    active Army components. The unit’s reset start date begins when the unit
    Commander determines that 85 percent of the unit’s equipment has arrived at the
    unit’s home station. See Appendix C for a diagram of the reset process.

    Technical Inspections. Technical inspections (TIs) are performed on equipment
    as part of the reset program to estimate man-hours, to list specific parts required
    to repair the equipment, and to determine whether maintenance is required
    beyond the field level. Field-level reset is work performed to correct equipment
    faults as described in Technical Manuals for the equipment’s level of
    maintenance. Field-level reset work is implemented by the Major Army
    Commands, and is performed using soldier labor, augmented by contractor labor
    as required. This work is performed on or near the installation where the
    equipment is stationed. Field-level reset is performed using a maintenance
    transaction: equipment is turned in, repaired, and the same piece of equipment is
    returned to the unit. TIs are required for field-level reset items but are not
    required for items on the Automatic Reset Induction (ARI) list.

    Automatic Reset Induction. The ARI list contains items that are automatically
    inducted into the national-level reset program. U. S. Army Forces Command
    (FORSCOM) and AMC have placed items on the ARI list because of expected
    extensive wear and tear experienced in theater, that requires refurbishment or
    rebuilding. The ARI list identifies equipment that will receive depot-level
    (national-level) maintenance. Units are required to put a minimum of 25 percent
    of their equipment on the ARI list so that it is inducted into the national-level
    reset program before they depart from theater. National-level reset is work
    performed to correct equipment faults that require more than field-level
    maintenance. National-level reset is performed by representatives at AMC


                                           1

depots, arsenals, or forward-deployed bases; by contractors; by installation
maintenance staff; or by any combination of these. National-level reset is
initiated through a supply transaction: the unit turns equipment into AMC for
repair, the equipment is taken off the unit’s property book, and the unit receives a
similar piece of equipment in return.

Maintenance Standards. The Army executes national and field-level reset
activities to repair units’ equipment to Technical Manual 10/20 level standards.
Two different standards for equipment repair consist of:

        •	 Technical Manual 10/20 standards – all routine maintenance executed
           and all deficiencies repaired.

        •	 Fully Mission Capable – equipment has no critical or safety
           deficiencies, but may have deficiencies that will need to be addressed
           in the longer term.

Units Reviewed. To assess the reset process, we selected seven Army units in
various stages of the process. Included in the seven units was one unit currently
deployed in Iraq, which had recently started their redeployment planning,
however, had not begun shipping equipment with regard to the reset process.

        •	 1st BCT, 101st Airborne Division, Ft. Campbell, Kentucky

        •	 3rd BCT, 101st Airborne Division, Ft. Campbell, Kentucky

        •	 1st BCT, 10th Mountain Division, Ft. Drum, New York

        •	 1st BCT, 25th Infantry Division, Ft. Wainwright, Alaska

        •	 4th BCT, 3rd Infantry Division, Ft. Stewart, Georgia

        •	 3rd BCT, 2nd Infantry Division, Baghdad, Iraq

        •	 553rd Combat Support Battalion, Ft. Hood, Texas

Army Materiel Command. As executive agent for the Reset Program, AMC is
the primary organization responsible for the execution of reset operations. AMC
is also accountable for coordinating the efficient use of all reset capabilities and
for providing necessary equipment for distribution by Army Deputy Chief of Staff
(ADCS) for Programs (G-8) in support of predeployment training and equipment
delivery dates and fielding timelines. AMC issued Fragmentary Orders
(FRAGOs) to help define and establish a plan for reset.

Army Sustainment Command. The Army Sustainment Command assumed
reset management responsibilities from AMC on October 1, 2006. Army
Sustainment Command monitors and facilitates synchronization, planning,
preparation, execution, rapid integration, and sourcing of Brigade Combat Team
(BCT) reset requirements. Specifically, Army Sustainment Command provides
asset visibility of the equipment as it moves through the reset process to detect



                                     2

     delays and alerts depots when equipment is due in for maintenance. The Army
     Sustainment Command directly supports FORSCOM.

     Army Forces Command. FORSCOM is responsible for establishing the field-
     level reset equipment repair priorities and requirements as well as equipment
     requirements and training needs for the units that are scheduled to deploy.
     FORSCOM works in coordination with the ADCS for Operations (G-3) to
     identify units about to deploy. G-3 manages, updates, and publishes the Dynamic
     Army Resourcing Priority List (DARPL) to guide equipment distribution plans
     and drive demands for national-level reset efforts.

     Funding. The FY 2007 supplemental funds provided reset resources totaling
     $17.1 billion with $8.5 billion in procurement and $8.6 billion in Operation and
     Maintenance. The actual obligation of funds occurs throughout the year based on
     the return of units and the induction of their equipment into field and depot reset
     sites. The Army relies on emergency supplemental appropriations to pay for the
     reset program because reset addresses damage and wear resulting directly from
     the Global War on Terrorism. In the coming years, approximately 35 units will
     conduct reset operations after returning from combat operations in Iraq. Reset
     costs for future years will depend on several factors, such as the level of force
     commitment; the activity level of those forces; and the amount of destroyed,
     damaged, or excessively worn equipment.


Objectives
     Our overall objective was to evaluate the Army’s Reset Program for equipment to
     determine the effectiveness of the TI process for units that are completing tours in
     support of Operation Iraqi Freedom. Specifically, we reviewed the process that
     Army units went through to reset their equipment used in support of Operation
     Iraqi Freedom. See Appendix A for a discussion of the audit scope and
     methodology and Appendix B for prior coverage related to the audit objectives.


Review of Internal Controls
     We did not identify an overall Management Control Program for reset. The
     formal Management Control Programs for the Federal Managers Financial
     Integrity Act do not address the reset process as an assessable unit for any one
     Army organization. Each Army organization that is involved in equipment reset
     has its own Management Control Program and specific internal control
     mechanisms pertaining to reset. We did not assess the individual internal control
     programs in all of the Army organizations involved in reset because of time and
     safety constraints and the complexity of this work. However, during our review
     we tested some of the key controls applicable to the reset of equipment that we
     considered necessary to address our audit objective. Specifically, we examined
     TIs, reset reporting, and ARI item turn-in practices of visited units, and compared
     them with relevant criteria to determine whether Army units were complying with
     reset guidance. We also evaluated the adequacy of the Army reset guidance itself.


                                          3

Generally, management controls were in place and working effectively to ensure
that the Army units we visited achieved equipment reset; however, we identified a
few controls needing improvement and management attention. We describe the
controls needing improvement in our report finding and recommendations.




                                    4

            Technical Inspection Process
            The Army’s TI process for the reset of unit equipment returning from
            Operation Iraqi Freedom was generally effective. However,
            inconsistencies occurred among redeploying units in the conduct of TIs,
            the granting of exemptions from automatic reset induction, and the
            reporting of reset equipment. This happened because guidance was:

                   •	 contradictory on when and where units should perform
                      technical inspections,

                   •	 nonexistent on exempting equipment from automatic reset
                      induction, and

                   •	 insufficient on uniform reporting requirements for equipment
                      undergoing the reset process.

            As a result, approximately 35 units returning from Operation Iraqi
            Freedom in the coming years will not use a standard method for initiating
            repair or replacement. Items needing to be reset may be delayed in
            entering the national-level reset pool. Exempting equipment reduces
            availability and creates difficulties in the redistribution of equipment to
            higher priority units. Additionally, reset status reporting may not provide
            decision makers with complete and consistent information.


Technical Inspection Policy Inconsistencies
     The Army’s TI process for the reset of unit equipment returning from Operation
     Iraqi Freedom was generally effective. However, inconsistencies occurred among
     redeploying units in the conduct of TIs, the granting of exemptions from
     automatic reset induction, and the reporting of reset equipment.


Guidance on Technical Inspections
     U.S. Army units supporting Operation Iraqi Freedom performed detailed TIs to
     estimate costs of repair, repair part requirements, and man-hour requirements for
     repair of each piece of equipment. Headquarters, Department of the Army and
     Major Army Commands issued contradictory policy and guidance regarding when
     Army units were to perform TIs.

     The seven Army units we visited performed some TIs in theater, but most TIs
     were conducted after the units returned to their home station. Four units
     performed TIs on some of the equipment before redeploying; however, TIs on the
     majority of equipment were performed at home station. One unit performed all of
     its TIs after returning to home station. Another unit was unable to verify whether
     it performed TIs in theater, but performed some TIs at home station.


                                         5

Army policy and guidance on the reset of equipment provided contradictory
information to units regarding when to perform TIs. An Army regulation
establishes and prescribes policies at the headquarters level. An operation order
is a directive issued by a commander to subordinate commanders to effect the
coordinated execution of an operation. A FRAGO is an abbreviated form of an
operation order, issued as needed, that eliminates the need for restating
information contained in an operation order. FRAGOs are the type of directive
used most frequently at lower echelons. Therefore, an Army regulation has
greater authority than an operation order or a FRAGO. For example:

    •	 Interim Change to Army Regulation 710-2, “Property Accountability
       During Deployment and Redeployment,” November 22, 2005, instructs
       units to conduct a TI of all equipment, less those items on the ARI list,
       prior to redeploying to home station.

    •	 Annex F to the FY 2007 Reset FRAGO, September 29, 2006, specifies
       that a TI is required for items not on the ARI list. Active component
       equipment not qualifying for depot-level maintenance will be shipped to a
       unit’s home station. The unit’s motor pool will inspect equipment, order
       repair parts, apply all modification work orders, and complete all
       maintenance actions to achieve the Technical Manual 10/20 standard.

    •	 Memorandum of Instruction for Reconstitution and Reset of U. S. Army
       Forces Command Active Component Units, April 28, 2005, and the Letter
       of Instruction for Reset of Forces Command Active Component,
       March 7, 2007, states that units will conduct a TI of all equipment, less
       those items on the ARI list, prior to redeploying to home station. If the
       operational tempo precludes equipment inspection prior to loading the
       vessel, the inspection will be performed within 30 days of equipment
       arriving at home station.

Contradictions in guidance regarding when and where to perform TIs affect the
overall readiness of the warfighter. Conducting TIs when the unit returns to home
station allows the soldier to focus on the mission while in theater and, once home
in a safe environment, perform TIs. However, performing the TIs at home station
may delay equipment’s induction into the national-level maintenance reset
program because it was originally assumed the equipment would require only
field-level maintenance. As a result of lead times at repair facilities, equipment
may not be returned in time for unit training and exercises.

We consulted with representatives from the Office of ADCS for Logistics (G-4)
regarding the contradiction in the guidance between the Interim Change to Army
Regulation 710-2 and Annex F to the FY 2007 Reset FRAGO. The representative
agreed that the guidance is contradictory regarding when and where units should
perform TIs. The audit team briefed representatives from the Offices of ADCS
G-3, G-4, G-8, and AMC regarding the contradiction in the guidance. In addition,
on May 31, 2007, we issued a memorandum to ADCS G-4, G-8, and AMC
summarizing these areas of concern.




                                     6

Guidance on Exemptions From Automatic Reset Induction
    Automatic Reset Induction Equipment. A lack of guidance exists for
    exempting equipment from ARI. The “Property Accountability During
    Deployment and Redeployment” policy issued by ADCS G-3 states that units are
    encouraged to identify and turn in as much of the ARI equipment as possible with
    the goal of at least 25 percent during the redeployment process. The FY 2007
    Reset FRAGO states, “While immediately shipping 100 percent of ARI list
    equipment may not be possible given training requirements at home station, all
    ARI list equipment must be turned in to AMC for repair.” We found that three of
    the units we reviewed shipped a minimum of 25 percent of the ARI items directly
    from theater.

    Current reset guidance for ARI does not outline a process for exempting items
    from the ARI list. When a unit does not turn in all its ARI list equipment, it can
    potentially create asset visibility, budgetary, and equipment supply system issues.

    During our review of the 101st Airborne Division, we obtained seven
    memorandums for the division exempting ARI equipment. We concluded the
    101st Airborne did not follow published criteria and exempted some of its ARI
    list equipment. The 101st Airborne exemption memorandums excluded 221
    pieces of equipment (listed in Appendix D), including generators and chemical
    monitors, from induction into the reset program. The justification for exempting
    the equipment was little or no usage of items in theater. The 101st Airborne
    Division exemption memorandums were approved by officials within the division
    but never by officials higher than division level. AMC, the executive agent for
    Reset, stated that it was unaware of units exempting items on the ARI list.

    An ARI list exemption memorandum was also obtained for the 1st BCT,
    10th Infantry Division, exempting 85 pieces of equipment from the reset program.
    These items were similar to those exempted by the 101st Airborne Division. The
    units exempted the equipment because they used it only a little or not at all while
    deployed in theater. See Appendix D for a list of specific items exempted.

    During our review of the 1st Stryker Brigade Combat Team (SBCT) at
    Fort Wainwright and the 4th BCT at Fort Stewart, we found that generators listed
    as ARI equipment were not sent to the depots, and exemption memorandums
    were not drafted by the units. In each case, unit representatives determined that
    the generators could be maintained at home station. For example, the 1st SBCT
    at Fort Wainwright exempted 41 generators.

     In Summary, units did not turn in all their ARI list equipment for national-level
    reset generally due to lack of or minimal use of the equipment. According to
    AMC, some unit commanders decide not to turn in ARI list equipment because of
    their uncertainty about whether the equipment will be returned in a timely manner
    to meet their training requirements.




                                         7

           Army Forces Generation. Under the Army Forces Generation (ARFORGEN1)
           model, the Army goal is to provide every unit 100-percent fill of requirements on
           the standardized Modified Table of Organization and Equipment. The ADCS G-3
           determines which units to equip using the DARPL.2 Under ARFORGEN, all
           equipment is considered Army equipment and is positioned to best support the
           National Military Strategy.

           One purpose of equipping units using DARPL is to overcome shortfalls through
           equipment maneuver and reuse in accordance with ADCS G-3 priorities.
           Exempting equipment creates difficulties for redistributing equipment to higher
           priority units. Units that keep their own equipment for reasons of low or no usage
           circumvent ARFORGEN.

           In the Army’s FY 2006 annual assurance statement, the Department identified
           visibility of equipment transferred between theaters or areas of responsibility as a
           weakness requiring attention. This weakness could jeopardize readiness in
           deploying units if equipment cannot be found to meet all their training
           requirements. Also, AMC stated it is not completely aware of exemptions to
           equipment on the ARI list. When asset visibility problems are accompanied by
           exemptions made without full notification to AMC, implementing ARFORGEN
           and equipping newly deploying units both become difficult. AMC, as the
           executive agent for the Reset Program, should track items that are not turned in.

           Exemptions also lead to budgetary problems. For example, if a depot is budgeted
           to repair 1,000 generators, and only 800 arrive at the depot because a unit decided
           to exempt 200 generators, this can cause a budget problem. This same decrease
           in the number of items arriving in the national-level reset program can also cause
           an adverse effect on the number of parts already planned for and possibly ordered
           for the reset of the exempted generators.


Guidance for Reporting Reset Equipment
           We identified equipment reporting guidance for Army units redeploying from
           Operation Iraqi Freedom, but it was insufficient on uniform reporting
           requirements for equipment undergoing the reset process. This guidance included
           Annexes E and F of the April 28, 2005, FORSCOM Memorandum of Instruction
           and the Army ARI list.

               •	 Annex E provides a spreadsheet format for reporting equipment being
                  reset. The annex requires units to report total items to be reconstituted and
                  the percentages of that total that were completed during each weekly
                  reporting period and that were completed in total.

               •	 Annex F provides guidance on equipment categories to be included in
1
    ARFORGEN is a structured progression of increased unit readiness over time, resulting in availability of
    trained, ready, and cohesive units prepared for operational deployment in support of regional combatant
    commanders’ requirements.
2
    The Department of the Army G-3 sets priorities for equipment fills and maneuver using DARPL.



                                                       8

       field-level reset reporting. The 12 categories mentioned in the annex are
       general, such as weapons, communications equipment, and soldier support
       equipment. The guidance gives no criteria for reporting individual items.

   •	 AMC directs Army units to induct all items included on the ARI list into
      the national-level reset program. The ARI list is specific down to the
      equipment line item; however, the list identifies only equipment for the
      national-level reset program and does not identify any equipment that
      should be inducted into the field-level reset program. Additionally, units
      have the ability to request induction of field-level items (not on the ARI
      list) into the national-level reset program if they decide that field-level
      repair will not be sufficient.

We asked officials from six of the seven Army units we visited to provide us with
a list of the equipment they redeployed from Operation Iraqi Freedom and
processed for reset. We found some very clear differences between those units
reset reporting practices. The Army units we visited were reporting different
numbers of total items for reset. Three units we visited reported all the
redeployed equipment, while the remaining three units we visited only reported
items that the unit commander determined were maintenance significant items.
Maintenance significant items were identified as items requiring maintenance
higher than the immediate user.

The 1st and 3rd BCTs at Ft. Campbell, Kentucky, and the 553rd Combat Support
Battalion headquarters company at Ft. Hood, Texas, reported all the equipment
that they brought back from Operation Iraqi Freedom. By contrast, the 1st BCT,
10th Infantry Division at Ft. Drum, New York, the 1st SBCT, 25th Infantry
Division at Ft. Wainwright, Alaska, and the 4th Heavy Brigade Combat Team
(HBCT), 3rd Infantry Division at Ft. Stewart, Georgia, reported only items that
they determined were maintenance significant, which were only a subset of the
equipment they brought back from Iraq. The method for determining which
equipment items were significant depended on the judgment of the local Army
unit decision makers.

Army guidance was available for units to identify equipment for reset reporting,
but some of the guidance was very general and subject to interpretation. We
noted that the 1st BCT at the 10th Infantry Division at Ft. Drum, for example, did
not include chemical protective masks, reeling devices, or computer and office
equipment in its reset reporting. Failure of Army units to include the same or
similar items in the universe for reset reporting may prevent senior Army officials
from having a complete understanding of the operational status of items not
reported, which may include safety-critical or mission-critical equipment.
Chemical protective masks can be critical to the safety of soldiers confronted with
an operational nuclear, biological or chemical environment. Reeling devices are
needed to remove communications wiring prior to redeployment. Computers and
office equipment, although they are commercial items that can be easily replaced,
are critical to achieve management oversight, command, and control of military
operations. These items could have been damaged during the deployment, yet
they were not reported.




                                     9

     An important implication of the variation among units in the items reported is that
     Army officials may not have accurate information for comparing how far along in
     the reset process one unit is over another. Thus, the data and methods used for
     calculating and reporting reset completion and detailing equipment status were
     not uniform, complete, or available to Army officials who were responsible for
     developing deployment packages; arranging for theater provided equipment prior
     to or on arrival in theater; and making other deployment, redeployment, and reset-
     related decisions. Uniform, consistent, complete, and accurate data facilitate
     good decision making and efficient deployment, redeployment, repair, and reset
     operations.

     Flexibility of units to send additional items for national-level reset was included
     in the guidance because units do not all have the same missions, authorized
     Modified Table of Organizational Equipment equipment sets, personnel abilities,
     or repair facilities and capabilities. Because of these differences among units,
     equipment that cannot be sufficiently reset through the field-level reset program
     may need to be inducted into the national-level reset program.


Other Matter of Interest
     Under the Army’s plan for modularity, units no longer deploy only as large
     divisions. Today’s force structure allows the Army the flexibility of deploying
     BCTs with different capabilities that are then supplemented by smaller support
     elements or individual augmentees to fulfill the BCTs’ mission.

     We visited one support element during this review, the 553rd Combat Support
     Battalion, at Fort Hood, Texas. We found that this smaller subordinate unit,
     which was not permanently assigned to the BCT it supported during its Operation
     Iraqi Freedom tour, did not receive information regarding roles and
     responsibilities for executing the reset process before leaving theater. However,
     similar types of units permanently attached to other BCTs, based on their Table of
     Organization and Equipment, are assured oversight to include reset guidance
     because their higher headquarters have a vested interest in reporting readiness as
     a division.

     Because modularity allows units to be temporarily attached to an organic unit to
     support mission requirements, information may not be relayed to the subordinate
     units and can be overlooked. The lack of knowledge transfer creates confusion,
     which also delays the process and increases time and expense. For example,
     because the 553rd Combat Support Battalion did not receive timely guidance
     pertaining to the reset program, the unit did not perform TIs of equipment until 60
     days after returning to home station. Command emphasis on relaying reset
     guidance to subordinate units down to the Company level would alleviate the
     problem and ensure continuity of operations.




                                          10 

Conclusion 

     Approximately 35 units returning from Operation Iraqi Freedom in the coming
     years will not use a standard method for initiating repair or replacement. Items
     needing reset may be delayed in entering the national-level reset pool. Exempting
     equipment reduces availability and creates difficulties in the redistribution of
     equipment to higher priority units. Additionally, reset status reporting may not
     provide decision makers with complete and consistent information.


Recommendations, Management Comments, and Audit
  Response
      Redirected and Renumbered Recommendations. As a result of management
     comments, we redirected Draft Recommendation 2. to the Army Deputy Chief of
     Staff for Logistics (G-4) and renumbered the recommendations. Draft
     Recommendations 1.a., 1.b., and 2. have been renumbered as Recommendations
     1., 2., and 3.

     We recommend that the Army Deputy Chief of Staff for Logistics (G-4):

            1. Establish clear policy that allows consistent application by Army
     units on when and where units will perform technical inspections.

            2. Establish uniform reporting criteria to ensure that Army officials
     receive consistent equipment readiness information for monitoring progress
     during the reset process.

            3. Establish policy directing units to seek approval from the U.S.
     Army Materiel Command for equipment exemptions from the Automatic
     Reset Induction list.
     Army Deputy Chief of Staff for Logistics (G-4) Comments. The Director of
     Maintenance, responding for the Army Deputy Chief of Staff for Logistics (G-4),
     concurred with Draft Recommendations 1.a. and 1.b. addressed to the Army
     Deputy Chief of Staff for Logistics (G-4) and with the intent of Draft
     Recommendation 2. addressed to the U.S. Army Materiel Command (now
     directed to the Army Deputy Chief of Staff for Logistics (G-4). The Director of
     Maintenance stated that the Army Deputy Chief of Staff for Logistics (G-4) will
     develop clear and consistent guidance on when and where units complete
     technical inspections, establish uniform criteria for reporting reset progress, and
     provide a policy on exempting equipment from the ARI list. The guidance and
     criteria will be included in the FY 2008 Reset FRAGO.

     Audit Response. The comments of the Director of Maintenance are responsive
     for Draft Recommendations 1.a. and 1.b. In addition, the Army Deputy Chief of
     Staff for Logistics (G-4) accepted responsibility for Draft Recommendation 2. and
     agreed to provide guidance and criteria in the FY 2008 Reset FRAGO. We



                                         11 

request that the Army Deputy Chief of Staff for Logistics (G-4) comment on
redirected Recommendation 3.

U.S. Army Materiel Command Comments. The Director, Internal Review and
Audit Compliance Office, responding for the Commander, U.S. Army Materiel
Command, nonconcurred with Draft Recommendation 2. The Director indicated
that the recommendation should be redirected to the Army Deputy Chief of Staff
for Logistics (G-4) because the Army Deputy Chief of Staff for Logistics, not
U.S. Army Materiel Command, establishes the policy for the Automatic Reset
Induction list.

Audit Response. We agreed with the Director, Internal Review and Audit
Compliance Office. We redirected Draft Recommendation 2. to the Army Deputy
Chief of Staff for Logistics (G-4).




                                  12 

Appendix A. Scope and Methodology 

   We conducted this performance audit, from August 2006 through August 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We evaluated the Army’s reset program for equipment to determine the
   effectiveness of the technical inspection process for those units that are
   completing their tour in support of Operation Iraqi Freedom. Although TIs were
   the announced objective, we reviewed other aspects of the reset process as well.

   Audit Reannouncement. The original announcement letter stated the audit
   objective was to evaluate the Army’s Reset Program for ground vehicles to
   determine the effectiveness of the TI process for units that are completing tours in
   support of Operation Iraqi Freedom. During our preliminary work we found that
   limiting the review to ground vehicles would not provide senior Army officials
   sufficient information to help in their decision making process. The audit was
   reannounced in January 2007 expanding the objective to include Army
   equipment.

   Unit Selection. The United States Army currently contains 10 Division
   Operational Commands consisting of 40 BCTs. We determined that sampling a
   BCT sized unit was the best course of action based on our meeting with the Army
   Deputy Chief of Staff for Operations (G-3), the Army Deputy Chief of Staff for
   Logistics (G-4), and the Army Deputy Chief of Staff for Programs (G-8). We
   reviewed at least one unit from each of the three types of BCTs: Infantry,
   Stryker, and Heavy.

   The United States Central Command provided the audit team with a schedule of
   Army units supporting Operation Iraqi Freedom known as the “patch chart.” In
   order to gain an understanding of the TI and reset processes, the audit team
   identified units that have been redeployed to their home stations and have either
   recently completed or are undergoing the reset process as well as a unit in theater
   preparing to redeploy to their home station and in the planning stages of reset.

   Units Reviewed. We reviewed units that were either undergoing or have recently
   completed the reset process within the last 12 months. We judgmentally selected
   seven units for our review:

           •   1st BCT, 101st Airborne Division, Ft. Campbell, Kentucky

           •   3rd BCT, 101st Airborne Division, Ft. Campbell, Kentucky

           •   1st BCT, 10th Mountain Division, Ft. Drum, New York

           •   1st BCT, 25th Infantry Division, Ft. Wainwright, Alaska


                                        13 

            •   4th BCT, 3rd Infantry Division, Ft. Stewart, Georgia

            •	 3rd BCT, 2nd Infantry Division, Baghdad, Iraq

            • 553rd Combat Support Battalion, Ft. Hood, Texas
Based on a recommendation from a senior Army official at Coalition Forces Land
Component Command, we also included one Combat Support Battalion, the
553rd Combat Support Battalion, in our review. To gain an understanding of the
entire process, we visited with AMC and Coalition Forces Land Component
Command activities in Kuwait that were helping units redeploy to their home
stations.

Between January 2007 and August 2007, we interviewed personnel from seven
units. We prepared a list of standardized questions designed to assist us with
obtaining consistent results about the TI and reset process.

Technical Inspections. In order to review TIs, we selected a sample from each
of the categories in the Army Reset Report provided to Congress on June 10,
2005, based on equipment lists provided by the units. These categories include:

        •	 Aircraft, Aircraft Materiel;

        •	 Ammunition, Weapons, and Tracked Combat Vehicles, Special
           Weapons;

        •	 Combat Vehicles;

        •	 Mobility, Tactical, and Support Vehicles, Vehicular Components;

        •	 Communications and Electronics Equipment;

        •	 Communications Security;

        •	 Ground Forces Support Materiel;

        •	 Missiles, Missile Materiel;

        •	 Stryker; and

        •	 Other.

Criteria. We reviewed the following publications, memorandums, operation
orders, and FRAGOs developed by the Department of the Army, and Army
Materiel Command to determine the effectiveness of the TI and reset processes.

        •	 Department of the Army Operation Order, “Setting the Force,”
           May 15, 2003;




                                    14 

        •	 Department of the Army FRAGO, “RESET FRAGO,” October 6,
           2005; Department of the Army Fragmentary Order, “FY07 RESET
           FRAGO,” September 29, 2006;

        •	 Department of the Army Memorandum, “Army Campaign Plan,
           Change 4,” July 27, 2006; Department of the Army Memorandum,
           “Memorandum of Instruction for Reconstitution and Reset of
           FORSCOM Active Component Units,” April 28, 2005; Department
           of the Army Memorandum, “Letter of Instruction for RESET of
           Forces Command Active Component (Change 1),” March 7, 2007;

        •	 Interim change to Army Regulation 710-2, “Property Accountability
           During Deployment and Redeployment,” November 22, 2005, which
           provides guidance on TIs, Left Behind Equipment, and Theater
           Provided Equipment;

        •	 Army Materiel Command Memorandum, “AMC RESET OPLAN
           FRAGO 1,” May 4, 2005; and

        •	 Army Reset Report to Congress as Required by the House
           Appropriations Committee on Defense, Report 109-119, June 10,
           2005.

Significant Meetings. We interviewed personnel from the United States Central
Command; the Army Central Command; the Army Materiel Command; the Army
Forces Command; the Coalition Forces Land Component Command; the Army
Deputy Chief of Staff for Operations (G-3); the Army Deputy Chief of Staff for
Logistics (G-4); and the Army Deputy Chief of Staff for Programs (G-8) to
determine the scope and responsibilities for their programs as they relate to TIs
and the reset process.

To gain a better understanding of the scope of operations, the audit team attended
the AMC reset conferences held October 2006 and March 2007. Members of the
audit team also viewed the reset processes performed at Camp Arifjan, Kuwait, a
main hub for units redeploying to their home stations.

Use of Computer-Processed Data. To achieve our audit objectives, we used
computer-processed data to obtain equipment lists in the form of Microsoft Excel
spreadsheets. From these spreadsheets, the audit team reviewed selected TIs for
pieces of equipment. This data did not influence the results of the audit findings.

Use of Technical Assistance. We consulted with the Office of Inspector General
Quantitative Methods Directorate about developing a sample of units to review.
Because the BCT selection was a time-driven process, we determined that a
statistical sample would not be appropriate.

Government Accountability Office High-Risk Area. The Government
Accountability Office identified several high-risk areas in the DoD. This report
provides coverage of the DoD Supply Chain Management high-risk area.




                                    15 

Appendix B. Prior Audit Coverage 

   During the last 5 years, the Government Accountability Office (GAO) and the
   Army Audit Agency (AAA) have issued seven reports discussing the reset
   process. Unrestricted GAO and AAA reports can be accessed over the Internet at
   http://www.gao.gov and https://www.aaa.army.mil.


GAO
   GAO Testimony No. GAO-07-439T, “Defense Logistics: Preliminary
   Observations on the Army's Implementation of Its Equipment Reset Strategies,”
   January 31, 2007

   GAO Testimony No. GAO-06-604T, “Preliminary Observations on Equipment
   Reset Challenges and Issues for the Army and Marine Corps,” March 30, 2006

   GAO Report No. GAO-05-767, “DoD Should Consider All Funds Requested for
   the War When Determining Needs and Covering Expenses,” September 28, 2005

   GAO Report No. GAO-05-427, “Better Management and Oversight of
   Prepositioning Programs Needed to Reduce Risk and Improve Programs,”
   September 6, 2005

   GAO Report No. GAO-05-660, “An Integrated Plan is Needed to Address Army
   Reserve Personnel and Equipment Shortages,” July 12, 2005

   GAO Report No. GAO-05-293, “Processes to Estimate and Track Equipment
   Reconstitution Costs Can Be Improved,” May 5, 2005


Army
   AAA Report No. A-2006-0086-ALM, “Coordination Between Local and National
   Level Reset: Fort Hood, Texas,” March 30, 2006




                                     16 

Appendix C. Reset Process 





ARPL   Army Resource Priority List
DA     Department of the Army
DD     Department of Defense
DS     Direct Support
LAR    Logistics Assistance Representative




                                      17 

Appendix D. 	Automatic Reset Induction
             Exemptions by Unit
The table shows items on the ARI list that were exempted from the national-level reset
program using signed memorandums. We also found some items at the 1st SBCT,
Ft. Wainwright, Alaska, and at the 4th BCT, 3rd Infantry Division, Ft. Stewart, Georgia,
that were not sent to the national-level reset program, but because no exemption
memorandums had been prepared and signed for those items, they are not shown below.


   LIN              Nomenclature            1st BCT, 10th ID   101st Airborne*    Total

C05701     IMPROVED CHEM AGT MON                   79                51            130
G18358     GEN ST MEP 831                                            65            65
G11966     GEN ST DSL MEP-802A                                       17            17
G36237     GEN SET MEP MOD 501-A                                     13            13
V98788     HYP-57/TSEC                                               12            12
G53778     GEN SET DED TM:PU-802                                     9              9
C07506     SHELTER INFLATABLE                       6                 3             9
G42170     GEN SET PU-798                                            6              6
T49255     MHE 270 4K FORKLIFT                                       6              6
G02341     AN/PSS-12 MINE DETECTORS                                  4              4
G35851     PU-803                                                     4             4
G42238     GEN PU 797                                                4              4
G74711     MEP 803A                                                   4             4
S75175     M129A4 VAN                                                 4             4
X62237     TRUCK VAN EXP, M934A2                                     4              4
H01907     ELEC SHOP AN/ASM-146                                       3             3
H01912     AN/ASM-147 ESV SHELTER                                     3             3
G12170     MEP 804A                                                   2             2
H01855     AN/ASM 189 ESV                                             2             2
J35492     PU-405                                                     2             2
C36151     CRANE WHEEL MTD                                           1              1
H01857     AN/ASM 190 ESV                                             1             1
P28083     POWER PLANT AN/MJQ-35                                      1             1

TOTAL	                                             85                221           306


   * Exemptions listed represent the aggregate for the entire 101st Airborne Division.

BCT Brigade Combat Team
ID   Infantry Division
SBCT Stryker Brigade Combat Team




                                           18 

Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Director, Administration Management
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Army Deputy Chief of Staff for Operations, G-3
Army Deputy Chief of Staff for Logistics, G-4
Army Deputy Chief of Staff for Programs, G-8
Commander, U.S. Army Forces Command
Commander, U.S. Army Materiel Command

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Commands
Inspector General, U.S. Joint Forces Command
Commander, U.S. Central Command
  Inspector General, U.S. Central Command
Commander, U.S. Pacific Command
Commander, U.S. European Command


                                          19 

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Subcommittee on Oversight and Investigations, Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform




                                        20 

Army Deputy Chief of Staff for Logistics (G-4)
Comments
                                                                                              Final Report
                                                                                               Reference

                                   DEPARTMENT OF THE ARMY
                                OFFICE OF THE DEPUTY CHIEF OF STAFF, G-4
                                          500 ARMY PENTAGON
                                       WASHINGTON, DC 20310-0500




     MEMORANDUM THRU DEPUTY CHIEF OF STAFF, G4, 500 ARMY PENTAGON,
     WASHINGTON, D.C. 20310

     FOR UNITED STATES DEPARTMENT OF DEFENSE OFFICE OF THE INSPECTOR
     GENERAL (DODIG), 400 ARMY NAVY DRIVE, ARLINGTON, VA, 22202

     SUBJECT: Report on the Inspection Process of the Army Reset Program for
     Equipment for Units Returning From Operation Iraqi Freedom (Project No. D2006­
     D000LH-0246.000


     1. This is the Official Army Position, on subject report, to the DODIG'S request for
     review and comment by the Office of the Deputy Chief of Staff, G-4 (ODCS, G-4).

     2. The ODCS, G-4 concurs with recommendation #1 that the ODCS, G-4 establish
     clear and consistent policy guiding when and where units will perform technical
     inspections and establish uniform criteria for reporting reset progress. The ODCS, G-4
     will provide this guidance in the FY08 Reset FRAGO.

     3. The ODCS, G-4 concurs with the intent of recommendation #2. However, ODCS,
                                                                                              Redirected
     G-4 believes that in lieu of Headquarters Army Materiel Command establishing the
                                                                                              and
     Automatic Reset induction equipment exemption policy, the ODCS, G-4 should
                                                                                              renumbered
     establish such policy. The ODCS, G-4 will provide this policy in the FY08 Reset
                                                                                              as Recom­
                                                                                              mendation 3.
     FRAGO.


     4. The point of contact is Mr. Matthew Adams, (703) 614-4173 or email:
     matthew.adams2@hqda.army.mil




                                                    DAVID E. CAMPBELL
                                                    Director of Maintenance




                                                  21 

U.S. Army Materiel Command Comments



                                      DEPARTMENT OF THE ARMY
                                    HEADQUARTERS, U.S. ARMY MATERIEL COMMAND
                                               9301 CHAPEK ROAD
                                           FORT BELVOIR. VA 22060-5527




      AMCIR
                                                                                                                                16 October 2007


      MEMORANDUM FOR Mr. David Lawson, Chief. The Army Audit Liaison Office. U.S. Army
      Audit Agency, 3101 Park Center Drive, Alexandria, VA 22302-1596

     SUBJECT: DODIG DRAFT REPORT (Project No D2007-D000LH-0246.000): Report on The
     Army      Reset      Program         f o r   U n i t s   R e t u r n i n g   f r o m   O p e r a t i o n       r a q i   F r c e d o m   (AMC
                                                                                                                I



     I. Headquarters, U.S. Army Materiel Command (HQAMC) have reviewed the subject draft
     report and nonconcur with the recommendation. Comments are enclosed.


    2. HQ AMC point of contact for this action is Mr. Gary Irving, commercial (703) 806-9844
    DSN: 656-9844, or email address gary.irving@us.army.mil

    FOR THE COMMANDER:




    E n c l
                                                                  SUSAN C. McCOY
                                                                  Director, Internal Review and
                                                                   Audit Compliance Office




                                                                      22
                                                                                                Final Report
                                                                                                 Reference




                                  C O M M A N D REPLY
                          Project No, D2006-D000LH-0246.O00
    Draft Report on the Army Reset Program for Equipment for Units Returning From
                                Operation Iraqi Freedom


For the Commander, U.S. Army Materiel Command

Recommendation 2: The Commander of the Army Materiel Command (AMC) establishes
policy directing units to seek approval from the Army Materiel Command for equipment
exemptions from the Automatic Reset Induction (ARI) list.

Command Comments. Nonconcur. This recommendation should be redirected to HQDA G-4,              Redirected
because AMC does not establish nor publish the policy for the ARI list as that is a HQDA, G-4   and
function. AMC has provided the suggested information to be written and published for policy     renumbered
through HQDA G-4 for ARI list procedure and exemptions.                                         as Recom­

                                                                                                mendation 3.




                                                                        Enclosured




                                              23
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Mary L. Ugone
Wanda A. Scott
Robert F. Prinzbach II
Timothy M. Wimette
Douglas P. Ickes
William G. Vannurden
Teena R. Propst
Takia A. Matthews
Gregory S. Fulford
Michael T. Banach
Jennifer L. Trieschman
Cathy M. Mitchell
Monica L. Noell
Allison E. Tarmann
